               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




Inspection Report

Selected Purchase Card Transactions at the
Nevada Site Office



                      Department of Energy
                          Washington, DC 20585




 MEMORANDUM FOR THE SECRETARY
INS-O-06-01                                            November 2005
SELECTED PURCHASE CARD TRANSACTIONS AT THE
NEVADA SITE OFFICE



TABLE OF
CONTENTS


              OVERVEW

              Introduction and Objective         1

              Observations and Conclusions       1


              DETAILS OF FINDINGS

              Purchase Card Transaction Review   2

              Training                           3

              Accounts Payable System            4

              Wackenhut Services, Incorporated   4

              Observation                        5


              RECOMMENDATIONS                    6


              MANAGEMENT COMMENTS                6


              INSPECTOR COMMENTS                 6


              APPENDICES

              A. Scope and Methodology           7

              B. Prior Purchase Card Reports     8

              C. Management Comments             9
Overview

INTRODUCTION       The Office of Inspector General (OIG) established a Purchase Card
AND OBJECTIVE      Task Force to proactively review purchase card expenditures under
                   the General Services Administration (GSA) SmartPay program,
                   which allows Department of Energy (DOE) and contractor
                   employees to make micro-purchases using Government furnished
                   credit cards.
                   As part of this initiative, we conducted a review of purchase card
                   transactions by Bechtel Nevada cardholders between March and
                   September 2004. Bechtel Nevada is the management and
                   operating contractor for DOE’s Nevada Site Office. Purchase card
                   transactions are processed by Bechtel Nevada through the Bank of
                   America.
                   The objective of our review was to determine if internal controls
                   regarding Bechtel Nevada’s purchase card program are adequate to
                   ensure purchases are proper and comply with applicable
                   guidelines.
                   The OIG has recently issued several reports concerning purchase
                   card transactions by DOE and contractor personnel. These reports
                   are listed in Appendix B.
OBSERVATIONS AND   We concluded that internal controls over Bechtel Nevada’s
CONCLUSIONS        purchase card program could be improved. Specifically, we found:

                   •   Purchase card transactions were not always reviewed and
                       approved by designated approving officials, resulting in some
                       cardholders self-approving their purchases;
                   •   Purchase cardholders and approving officials were not
                       completing biennial refresher training within required
                       timeframes;
                   •   Bechtel Nevada did not reconcile the monthly Bank of
                       America statements with Bechtel Nevada’s internal purchase
                       card financial records, resulting in overpayments of $16,515 to
                       the Bank of America over a two-year period; and
                   •   The purchase card policy implemented by Wackenhut Services,
                       Inc., which participates in Bechtel Nevada’s purchase card
                       program, is not consistent with the Bechtel Nevada purchase
                       card policy.
                   In addition, we observed that Bechtel Nevada pays taxes to the
                   State of Nevada on purchase card transactions, such as gross
                   receipts and use taxes, even though the Federal Government is
                   exempt from paying these taxes.


Page 1                                     Selected Purchase Card Transactions
                                                       at the Nevada Site Office
Details of Findings

PURCHASE CARD         We found that Bechtel Nevada purchase card transactions
TRANSACTION           were not always reviewed and approved by designated approving
REVIEW                officials, resulting in some purchase cardholders self-approving
                      their purchases. We learned that some cardholders self-approved
                      transactions because approving officials were not always available
                      to approve the transactions. We noted that, for the cardholders we
                      interviewed, there was no alternate approving official to approve
                      purchases in the absence of the approving official.

                      “DOE Guidelines and Operating Procedures for the Use of the
                      GSA SmartPay Purchase Card” (DOE Guidelines) state that
                      approving officials must review and sign the monthly bank
                      “Statements of Account” to ensure that statements have supporting
                      documentation and are complete, accurate, and reflect only
                      authorized purchases. DOE Guidelines also state that both the
                      cardholder and approving official must review and approve the
                      monthly statements on a timely basis.

                      In contrast to DOE Guidelines, Bechtel Nevada requires weekly
                      review and approval of purchase card transactions. Bechtel
                      Nevada’s Purchase Card Administrator advised that approving
                      officials are not required to approve the monthly “Statements of
                      Account.” Instead, Bechtel Nevada requires each cardholder to
                      reconcile their transactions electronically on a weekly basis and
                      subsequently submit a Transaction Approval Report (TAR) to their
                      approving official for review and approval.

                      We found that the Bechtel Nevada process did not identify some
                      purchases that were self-approved by cardholders. Specifically,
                      3 of the 15 cardholders we interviewed had self-approved a total of
                      100 transactions totaling $41,550. For example:

                      •   One cardholder self-approved 15 transactions totaling $10,536,
                          of which $9,500 was for gift certificates to be used as awards
                          for employees. The cardholder self-approved the transactions
                          over a four-month period because the assigned approving
                          official had been terminated. An approving official
                          subsequently approved the cardholder’s TARs after we
                          identified the questionable transactions during our review.
                          Bechtel Nevada’s Purchase Card office, which is responsible
                          for the overall management and oversight of the Purchase Card
                          Program, was not aware that the cardholder’s TARs had not
                          been reviewed until after we requested information related to
                          the specific transactions;




Page 2                                                              Details of Findings
           •   A second cardholder self-approved 84 transactions totaling
               $30,637 for construction and building maintenance related
               supplies. The cardholder did not submit TARs on a weekly
               basis, as required by Bechtel Nevada’s policy. As an example,
               on August 4, 2004, the cardholder provided the approving
               official TARs covering the period April 14, 2004, through
               August 4, 2004; and

           •   A third cardholder self-approved a transaction totaling $377 for
               computer supplies. The cardholder acknowledged self-
               approving the transaction when the approving official was not
               available.

           Self-approved transactions by Bechtel Nevada cardholders went
           undetected because the Purchase Card office lacked internal
           controls to ensure that designated approving officials reviewed and
           approved all purchase card transactions. Specifically, we noted
           that the approving officials did not have electronic access to the
           internal purchase card system. Also, the Purchase Card office had
           not conducted reviews to verify that approving officials were
           reviewing and approving transactions, as required by DOE
           Guidelines. Although we determined that the purchase card
           transactions were reasonable and necessary, without an approving
           official’s review and approval, opportunities existed for abuses to
           occur. The Purchase Card office was unaware that approving
           officials were not reviewing and approving the TARs on a weekly
           basis; therefore, there was no verification that the purchases made
           were, in fact, reasonable and necessary.

TRAINING   We found that several purchase cardholders and approving
           officials were not completing their biennial refresher training
           within required timeframes. After reviewing training records, we
           determined that 10 of the 15 cardholders and 4 of the 11 approving
           officials we interviewed had not completed their biennial refresher
           training in a timely manner.

           Bechtel Nevada requires that all purchase cardholders and
           approving officials initially receive computer-based training and
           complete biennial refresher training every two years thereafter.

           The Purchase Card Administrator acknowledged that several
           cardholders and approving officials were past due for their biennial
           refresher training. We were advised, however, that the Purchase
           Card office was in the process of finalizing updates to the training
           module and that the necessary training would be provided shortly.
           The Purchase Card Administrator also acknowledged that several


Page 3                                                    Details of Findings
                 cardholders are “struggling” with the purchase card process,
                 policies, and procedures and that although the computer-based
                 training is adequate, the Purchase Card office plans to conduct
                 hands-on and/or group training in the near future.

ACCOUNTS         We found that Bechtel Nevada did not reconcile the monthly
PAYABLE SYSTEM   Bank of America statements with their internal purchase card
                 financial records, resulting in overpayments to the bank totaling
                 $16,515 over a two-year period. The Accounts Payable
                 Department at Bechtel Nevada is responsible for submitting a
                 monthly payment to the Bank of America for the purchase card
                 account.

                 An accountant in the Accounts Payable Department informed us
                 that the Bank of America had erroneously applied Bechtel
                 Nevada’s gas card payments to the purchase card account on seven
                 occasions beginning in March 2003. We were advised that the
                 Accounts Payable Department was aware of the discrepancies
                 between the Bank of America statements and Bechtel Nevada’s
                 internal purchase card financial records, and that attempts were
                 made to resolve the discrepancies with the Bank of America, but to
                 no avail. A management official advised us that due to the
                 inaccuracy of the Bank of America statement, Accounts Payable
                 used the Bechtel Nevada internal purchase card financial records
                 for payments. We were further advised that after Bechtel Nevada
                 reconciled the statement and the internal report, they determined
                 that the internal report was also inaccurate, which resulted in the
                 overpayment.

                 Bechtel Nevada took immediate corrective action following our
                 inquiry into the overpayment. A senior accountant informed us
                 that the $16,515 overpayment was reconciled and recovered from
                 the Bank of America. Bechtel Nevada has taken steps to ensure
                 that overpayments do not occur in the future.

WACKENHUT        We found that the purchase card policy implemented by
SERVICES,        Wackenhut Services, Inc. (Wackenhut) is not consistent with
INCORPORATED     the Bechtel Nevada purchase card policy.

                 In December 2001, Bechtel Nevada and Wackenhut signed a
                 Memorandum of Understanding regarding purchase card services,
                 whereby both parties agreed to utilize the Bechtel Nevada credit
                 card system. In accordance with the Memorandum of
                 Understanding, purchase card services would be provided by
                 Bechtel Nevada and all Wackenhut purchase card actions were to
                 comply with Bechtel Nevada’s purchase card policy. However, we



Page 4                                                         Details of Findings
              identified the following areas where Wackenhut’s policy is not
              consistent with Bechtel Nevada’s purchase card policy:

              •   Wackenhut cardholders and approving officials are not
                  required to have Authorization Letters on file;

              •   The Wackenhut Logistics Maintenance Specialist can purchase
                  items for stock replenishment without completing a requisition
                  worksheet; and

              •   Wackenhut cardholders can purchase sensitive items such as
                  binoculars and portable computers with their purchase cards.

OBSERVATION   We observed that Bechtel Nevada is paying taxes (such as gross
              receipts and use taxes) to the State of Nevada on purchase card
              transactions, even though the Federal Government is exempt from
              paying these taxes. DOE Guidelines require purchase cardholders
              to inform merchants that purchases made with Federal Government
              purchase cards are exempt from taxes.

              Bechtel Nevada does not require its cardholders to claim the
              Government’s tax-exempt status when using their Government
              purchase cards. Bechtel Nevada’s policy states that cardholders
              are to pay taxes on all purchases because Bechtel Nevada is not a
              tax-exempt entity. Bechtel Nevada officials estimated that
              $470,000 was paid in taxes for Fiscal Year 2004. We were advised
              by the Accounts Payable Department that Bechtel Nevada has been
              paying taxes to the State of Nevada on all Government credit card
              purchases since 1998.

              In 1994, GSA requested a ruling on the taxability of purchase card
              transactions from the Nevada Department of Taxation. The state
              ruled that purchases by Federal employees are tax exempt.
              However, we were advised that Bechtel Nevada has taken the
              position that although its employees were acting as an agent for
              DOE when using Government purchase cards, its employees are
              not Federal employees. Therefore, Bechtel Nevada decided to pay
              state and local sales tax when making purchases with Government
              purchase cards.

              We discussed this matter with the DOE Purchase Card Program
              Coordinator. The Coordinator advised us that according to a GSA
              Purchase Card representative, “all purchases made with a
              Government purchase card are tax exempt.”




Page 5                                                      Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Nevada Site Office, ensure that
                  Bechtel Nevada:

                  1. Strengthens internal controls by assuring all purchase card
                     transactions are reviewed and approved by a designated
                     approving official;

                  2. Assigns a designated approving official and an alternate
                     approving official to each cardholder;

                  3. Conducts required biannual refresher training for purchase
                     cardholders and approving officials on a timely basis;

                  4. Reconciles its internal purchase card financial records with the
                     monthly Bank of America statement, and takes immediate
                     action to resolve discrepancies; and,

                  5. Ensures that Wackenhut purchase cardholders, consistent with
                     the Memorandum of Understanding, adhere to Bechtel
                     Nevada’s purchase card policies and procedures.

                  We recommend that the General Counsel, National Nuclear
                  Security Administration:

                  6. Determine whether Bechtel Nevada, as an agent for the Federal
                     Government, should be paying taxes to the State of Nevada for
                     purchases made with Government purchase cards.

MANAGEMENT        Management generally agreed with our recommendations.
COMMENTS          Additionally, management cited a United States Supreme Court
                  decision, the United States v. New Mexico et al, 455 U.S. 720, 120
                  S.Ct. 1373 (1981), as validating the right of states to tax the
                  purchases of DOE management and operating contractors.
                  Management’s comments are included in Appendix C.

INSPECTOR         Management’s comments are responsive to our recommendations.
COMMENTS          We revised the report, as appropriate, to address management’s
                  comments.




Page 6                                                     Recommendations
                                          Management and Inspector Comments
Appendix A

SCOPE AND     We reviewed purchase card transactions by Bechtel Nevada
METHODOLOGY   that were processed through the Bank of America during the period
              March through September 2004. From our review, we identified
              257 questionable purchase card transactions. Based on these
              transactions, we initiated a review to determine if internal controls
              provided reasonable assurance that improper purchases would not
              occur, or would be detected in the normal course of business.

              We interviewed Federal and Bechtel Nevada staff associated with
              the Purchase Card Program at the Nevada Site Office, including 15
              cardholders and 11 approving officials. We identified and
              evaluated Federal policies and procedures, and relevant Bechtel
              Nevada guidance. We also obtained supporting transaction
              documentation from selected cardholders to determine if there had
              been any misuse of Government purchase cards. We reviewed
              the transaction documentation for: (1) adherence to purchase
              card limits; (2) adherence to rules for competition; and
              (3) reasonableness and business purpose/need.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we examined performance measurement processes as
              they relate to purchase cards.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                                 Scope and Methodology
Appendix B


                           PRIOR PURCHASE CARD REPORTS


    •    Letter Report on “Oak Ridge Operations Office Purchase Card Transactions,”
         Report No. INS-L-05-03, March 24, 2005;

    •    “The Department’s Federal Purchase Card Program at Headquarters,” DOE/IG-0675,
         February 2005;

    •    “Los Alamos National Laboratory’s Purchase Card Program Corrective Actions,”
         DOE/IG-0644, April 2004;

    •    “Sandia National Laboratories Procurement Card Program,” Report No. WR-B-02-03,
         August 2002; and

    •    “U.S. Department of Energy’s Purchase Card Programs - Lessons Learned,” Report No.
         I01OP001, February 2002.




Page 8                                                      Prior Purchase Card Reports
Appendix C




Page 9       Management Comments
                                                                    IG Report No. INS-O-06-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clearly to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report, which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
